                                Office of Inspector General
                               Corporation for National and
                                        Community Service




     AUDITOF CORPORATIONFOR NATIONAL
      AND COMMUNITYSERVICE GRANTS
               AWARDEDTO
     HABITATFOR HUMANITY
                       ~NTERNAT~ONAL

            OIG REPORT
                     NUMBER
                          06-28



                                               Corooratton for             -
                                                NATIONAL^
                                               COMMUNITY
                                               SERVICEEZZ




                       Prepared by:

                C O T O N & COMPANY LLP
                635 Slaters Lane, 4th Floor
                 Alexandria, Virginia 22314




This report was issued to Corporation management on February 8,2006. Under
the laws and regulations governing audit follow-up, the Corporation is to make
final management declslons on the report's flndlngs and recommendations no
later than August 8, 2006, and complete Its corrective actions by February8,
2007. Consequently, the reported findings do not necessarily represent the
final resolution of the Issues presented.
                                  f;j'xm,"d"*L &
                                  COMMUNITY
                                  SERVICE=



                           Audit of Corporation for National
                            and Community Sewice Grants
                      Awarded to Habitat for Humanity International
                                  Audit Report 06-28


OIG Summary
The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Cotton & Company LLP to perform an incurred-cost audit of
Habitat for Humanity International (Habitat), for Program Years 2002-2003, 2003-2004, and
2004-2005, through March 31, 2005. The audit covered financial transaction testing and
compliance and internal control testing of two grant awards funding the AmeriCorps
National Direct program at Habitat: 00ANDGA015 and 03NDHGA001.

The audit identified questioned costs, totaling $31,379, which related primarily to lump-sum
payments of living allowances to AmeriCorps members for periods in which they were not
serving, unsupported costs, and payments for unemployment insurance. The audit report also
includes seven findings and eight recommendations to improve compliance with grant
requirements and to improve internal controls. Habitat, in its response to our draft report,
generally proposed satisfactory corrective actions. The Corporation agreed that, during the
audit resolution process, it would verify that Habitat had implemented the recommendations.

The OIG reviewed Cotton & Company's report and related documentation and made
necessary inquiries of its representatives. Our review, as differentiated h m an audit in
accordance with generally accepted govemment auditing standards, was not intended to
enable us to express, and we do not express, an opinion on Claimed and Questioned Costs in
Appendix A of the report or conclusions on the effectiveness of internal controls and
compliance with laws and regulations. Cotton & Company is responsible for the attached
auditor's report dated September29, 2005, and the conclusions expressed in the report.
However, our review disclosed no instances where Cotton & Company did not comply, in all
material respects, with generally accepted govemment auditing standards.

This report is a matter of public record, and its distribution is not limited.




                                              *
                   1201 New York Avenue, NW Suite 830,Washington, DC 20525
                                    *                      *
                      202-606-9390 Hotline: 800-452-8210 www.cncsig.gov
                                                                                   Freedom Corps
                       Senior Corps * ArneriCorps * Learn and Serve America        M e a Dibmat. Vdunber
                      OFFICEOF INSPECTOR
                                       GENERAL
               CORPORATION
                        FOR NATIONAL
                                   AND COMMUNITY
                                               SERVICE

                        AUDITOF CORPORATIONFOR NATIONAL
                                                      AND
                        COMMUNITY  SERVICE
                                         GRANTSAWARDED TO
                         HABITAT FOR HUMANITY
                                            ~NTERNAT~ONAL




Section                                                                                                                            Page

Executive Summary           ....................................................................................................    1
               '
Independent Auditors Report .....................................................................................
                             1
                                                                                                                                    5

Exhibit A: Consolidated Schedule of Claimed and Questioned Costs .......................                                            7

Schedule A: Schedule of Claimed and Questioned Costs,
Award No. OOANDGAO 15 ........................................................................................                      8

Schedule B: Schedule of Claimed and Questioned Costs,
Award No. 03NDHGA001 ..........................................................................................                     11

Independent Auditors' Report on Compliance and Internal Control                                    ..........................       13

Appendices

A: Habitat's Response to Draft Audit Report
B: Corporation's Response to Draft Audit Report
The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Cotton & Company LLP to perform an incurred-cost audit of
Habitat for Humanity International (Habitat), for Program Years (PYs) 2002-2003,2003-
2004, and 2004-2005. Our audit included costs incurred under the following grants for the
periods specified below. Our audit covered financial transactions, compliance, and internal
control testing of the following awards funded by the Corporation:

Program                            Award No.             Award Period            Audit Period
AmeriCorps National Direct       00ANDGA015            O8.14.OO-l213l03       08 14 02-03 31~05'
~ m e r i ~ o National
              &        Direct    03NDHGA001            08/25/03-08/24/06      08125103-0313 1/05

                 * Habitat adjusted its final Financial Status Report in March 2005
Audit objectives were to determine if:

               Habitat's financial reports to the Corporation presented financial award results
               fairly, and these costs were allowable in accordance with award terms and
               conditions;

               Internal controls were adequate to safeguard Federal funds;

               Habitat had adequate procedures and controls to ensure compliance with
               Federal laws, applicable regulations, and award conditions; and

       .       Habitat established adequate program management oversight of its partnering
               and operating sites.

Habitat claimed $6,621,005 of costs in PYs 2002-2003,2003-2004, and 2004-2005. We
questioned Federal costs of $3 1,379. The term "questioned costs" is applied to those costs
questioned because of (1) an alleged violation or provision of law, regulation, contract, grant,
or cooperative agreement, or other agreement or document governing the expenditure of
funds; (2) a finding that, at the time of the audit, such cost is not supported by adequate
documentation; or (3) a finding that the expenditure of funds for the intended purpose is
unnecessary or unreasonable. Details on the costs questioned may be found below and in the
Independent Auditors' Report. Our audit expresses a qualified opinion on the Consolidated
Schedule of Claimed and Questioned Costs because of the questioned costs.

AmeriCorps members who suceessfidly complete terms of service under AmeriCorps grants
are cligiblc for education awards from the Corporation's National Service Trust. These
award amounts are not funded by Corporation grants and thus are not included in claimed
costs. As part of our audit, however, we determined thcrc is no effect of audit findings on
education award eligibility. Details of questioned costs are in Schedules A and B.
Questioned costs are summarized as follows:

                                             Federal Costs
                     Award No.                Questioned          Schedule
                     OOADNGAO 15                $15,945              A




Habitat claimed unallowable and unsupported costs as part of its matching requirements.
These costs were not questioned in the schedules, because Habitat exceeded its overall match
requirements.

We have also issued a report titled Independent Auditors' Report on Compliance and Internal
Control on our consideration of Habitat's internal control and compliance with laws and
regulations. In that report, we identified seven findings, which are required to be reported
under generally accepted government auditing standards. These findings are as follows:

    1. Habitat claimed unallowable and unsupported costs.

    2. Habitat claimed excess living allowances.

    3. Habitat claimed unallowable unemployment insurance.

   4. Habitat claimed unallowable staff labor.

   5. Habitat did not obtain criminal backgound checks for members bcfore placing them
       in substantial, direct contact with children.

   6 . Habitat did not have adequate procedures to ensure compliance with all grant
       provisions.

   7. Habitat did not have adequate procedures to ensure documentation of member
       activities.



Corporation for National and Community Sewice

The Corporation supports a range of national and community service programs that provide
an opportunity for individuals (members) to serve full or part time. It funds opportunities for
Americans to cngage in service that fosters civic responsibility, strengthens comrnunitics,
and provides educational opportunities for those who made a substantial commitment to
service.
The Corporation has three major service initiatives: National Senior Service Corps,
AmeriCorps, and Learn and Serve. The AmeriCorps program, largest of the initiatives,
provides Federal funding in two ways: grants through the State Commissions and direct
funding to grantees.

Approximately three-quarters of all Amencorps grant funding goes to governor-appointed
State service commissions, which award competitive grants to nonprofit groups that then
recruit AmeriCorps members to respond to local needs. The Corporation distributes most of
the balance of its funding directly to multi-State and national organizations such as Habitat
through a competitive grant process. Habitat enters into agreements with affiliate entitics
that then recruit and select members who cam living allowances and educational awards.

Habitat for Humanity International

Habitat is a nonprofit organization that seeks to eliminate poverty and homelessness. It
encourages people to help build and rchabilitate homes together in partnership with families
in need of housing. Through volunteer labor and donation of money and materials, Habitat
builds and rehabilitates houses with the help of the homeowner (partner families). Habitat
houses are sold to partner families at no profit and are financed with affordable, no-interest
loans. Income from homeowner monthly mortgage payments is used to build more Habitat
houses.

Habitat, headquartered in Amcricus, Georgia, has 200 full-time administrative staff. These
employees are paid with funds provided by AmeriCorps National Direct grants, as well as
private funding sources.

IIabitat's community affiliates are independent, locally run, nonprofit organizations. Each
affiliate coordinates all aspects of Habitat home building in its area and works with partner
families by educating them on home ownership, budgeting, and home maintenance. Habitat
has 40 operating sites nationwide, each with a director that is a part of the Habitat for
Humanity afiiliate staff, and approximately 250 AmeriCorps members in PY 2004-2005.
Operating sites provide day-to-day supervision of the members. The national office in
Americus maintains all original financial records, member records, and copies of member
timesheets. Operating sites maintain original member timesheets and evaluations.

Affiliates are competitively selected for participation in thc AmeriCorps program by
submitting proposals to Habitat. Habitat attempts to conduct yearly monitoring site visits to
all of its affiliates. If unable to visit all affiliates in a given year, it will perform site visits of
those sites with multiple. vroblems. Site visits focus on affiliate performance in six arcas:
grant compliance, community service project, national service identity, member
development, State commission collaboration, and program administration.
Total AmeriCorps National Direct program grant awards to Habitat and required matching
contributions are as follows:
                                                    ~~




               Award No.                  Grant Awards       Required Match
               OOANDGAO15                   $2,405,343            $456,086
               03NDHGA001
               Total

Habitat receives an annual Single Audit in compliance with Office of Management and
Budget (OMB) Circular A-133, Audits of States, Local Governments, and Non-ProJit
Organizations. We reviewed the Single Audits for the years ended June 30,2002,2003, and
2004. Corporation grants were selected as major programs in 2004. Habitat received
unqualified opinions in the past three years, and no reportable conditions or material
weaknesses were related to the Corporation funding.



We held an exit conference with Habitat and Corporation representatives on October 28,
2005. Habitat and Corporation responses to the draft report are included in the final report as
Appendices A and B, respectively. Using the findings and responses, the Corporation and
Habitat will engage in audit resolution to further determine the necessary corrective actions
for stated recommendations, resolve questioned costs, and recover unallowable costs.
Cotton6                                                         C ~ ~ l c6mConqldtly r.w
                                                                635 Slaterr Lane

Company                                                         4'W~lwr
                                                                Alexandria, VA22314



 September 29,2005

 Office of Inspector General
 Corporation for National and Community Service




 We have audited costs incurred by Habitat for PYs 2002-2003,2003-2004, and 2004-2005
 for the awards listed below. These costs, as presented in the Consolidated Schedule of
 Claimed and Questioned Costs (Exhibit A) and grant-specific Schedules of Claimed and
 Questioned Costs (Schedules A and B), are the responsibility of Habitat management. Our
 responsibility is to express an opinion on the consolidated schedule of claimed and
 questioned costs and grant-specific schedules based on our audit.

 Program                             Award No.            Award Period                   Audit Period
 Amencorps National Direct         00ANDGA015           08114100-12131/03             08114102-03131/05'
 AmeriCorps National Direct        03NDHGA001           08/25/03-08/24/06             08/25/03-03/31/05

                 *   Habitat adjusted its final Financial Status Report in March 2005

 We conducted our audit in accordance with audit standards generally accepted in the United
 States of America and generally accepted government auditing standards. These standards
 require that we plan and perform the audit to obtain reasonable assurance about whether the
 financial schedules are free of material misstatement. An audit includes examining, on a test
 basis, evidence supporting amounts and disclosures in the financial schedules. An audit also
 includes assessing accounting principles used and significant estimates made by
 management, as well as evaluating overall financial schedule presentation. We believe that
 our audit provides a reasonable basis for our opinion on incurred costs.

 The Consolidated Schedule of Claimed and Questioned Costs and grant-specific Schedules
 of Claimed and Questioned Costs are intended to present allowable costs incurred under the
 awards in accordance with OMB Circular A-122,Cost Principles for Non-Profit
 Organizations, other applicable OMB circulars, and award terms and conditions. Therefore,
 these are not intended to be complete presentations of Habitat's revenues and expenses in
 conformity with generally accepted accounting principles. These schedules also identify
 certain questioned education awards that are not funded by Corporation grants and thus are
not included in claimed costs. As part of our audit, however, we determined the effect of all
member-compliance issues on these awards.

In our opinion, except for questioned costs in the Consolidated Schedule of Claimcd and
Questioned Costs, the financial schedules referred to above present fairly, in all material
respects, costs claimed by Habitat for PYs 2002-2003,2003-2004, and 2004-2005, in
conformity with OMB Circular A-122, other applicable OMB circulars, and award terms and
conditions.

In accordance with generally accepted government auditing standards, we have also issued a
report dated September 29,2005, on our consideration of Habitat's internal control and
compliance with laws and regulations. This report is an integral part of an audit performed in
accordance with gcncrally accepted government auditing standards and should be rcad in
conjunction with this report in considering audit results.

This report is intended for the information and use of the Corporation, the OIG, Habitat, and
the U.S. Congress and is not intended to be and should not be used by anyone other than
these specified parties.

COTTON&COMPANY
             LLP



Michael ~ @ l e s ~ i c CPA
                        ,
                                                         EXHIBIT A


        HABITAT
              FOR HUMANITYINTERNATIONAL
 CONSOLIDATED
           SCHEDULEOF CLAIMED
                            AND QUESTIONED
                                        COSTS



                                       Questioned
             Approved      Claimed      Federal
Award No.     Budget        Costs        Costs      Schedule
OOANDGAOl5   $2,405,343   $2,159,551     $15,945       A
                                                                          SCHEDULE A


                  HABITATFOR HUMANITY  INTERNATIONAL
                SCHEDULE
                       OF CLAIMED  AND QUESTIONED COSTS
                        AWARDNO. 00ANDGA015
                   AUGUST14,2002, TO MARCH31,2005


                                                        Amount         Notes
        Approved Budget (Federal Funds)                $2,405,343
        Claimed Federal Costs                          $2,159,551

        Questioned Federal Costs:
          Lump-sum living allowance
          Unsupported costs
          Unallocable costs
          Member Unemployment Insurance
          No support for living allowance
        Total Questioned Federal Costs                    $1 5.945


1. Habitat claimed Federal costs of $14,133 and match costs of $4,890 for lump-sum
   living allowances paid to 5 1 members who completed service earlier than the 46%-
   week period stipulated in member contracts. According to AmeriCorps Provisions
   (2002 ed.), Section B. 1l.b., Living Allowance Distribution, living allowances are
   designated to help members meet necessary living expenses incurred only while
   participating in the AmeriCorps Program. Habitat interprets AmeriCorps Provisions
   to mean that members are entitled to receive full living allowances identified in
   member contracts, even if the members complete their service early. We therefore
   questioned $14,133.

2. Habitat claimed $826 in unsupported Federal costs, as follows:

          Habitat claimed $244 for the rental of a beach house to conduct training for
          members of the Charlotte affiliate. It did not, however, provide
          documentation to support actual rental costs for the beach house. The only
          documentation provided to support the rental was a typed letter with the word
          "Invoice." The "invoice" did not identify rental dates, rental fee, or name of
          the individual renting the house. While the invoice included the name and
          address of an individual, it was unclear if this individual actually rented the
          beach house on behalf of Habitat.
   b.      Habitat also claimed affiliate expenditures supported only by non-itemized
           credit card receipts or credit card statements. The following costs were
           supported only by credit card receipts showing total amounts, but cost
           breakdowns showing actual items purchased were not provided:

           .      $106 for an end-of-service training luncheon for which only $72 was
                  claimed;

           .      $59 for meal costs during local orientation;

           .      $105 for food and supplies for a conflict-resolution training session for
                  ArneriCorps members; and

           .      $1 14 for a correcting entry to reclassify $1 14 of National Direct
                  employee enrichment (training) expenses as meal expenses ($35 for
                  breakfast and $79 for lunch and snack items).

           .      $232 identified as Park Fees for team-building training were supported
                  only by a credit card statement that showed a charge of $280.
                  Documentation was not provided to identify names of attendees or
                  verify actual park-required fees for the training.

   According to AmeriCorps Provisions (2002 ed.), Section '2.21 .b., Source
   Documentation, the grantee must maintain adequate supporting documents for its
   expenditures (Federal and non-Fcderal) and in-kind contributions made under grants.
   Costs must be shown in books or records (disbursement ledger or journal) and must
   bc supported by source documents, such as receipts, travel vouchers, invoices, in-kind
   voucher, or similar document. We therefore questioned the $826.

3. Habitat claimed Federal costs of $545 in FY 2002-2003 for airfare for a Habitat
   employee who worked in Habitat's Disaster Recovery office and did not spend any
   time working on the AmeriCorps National Direct Program. These costs are
   unallowable in accordance with OMB Circular A-122, Attachment A, Paragraph A
   (4), Allocuhle costs. Habitat personnel were unable to explain why the airfare
   expense was charged to the AmeriCorps grant and stated that they regularly compare
   traveler names (Habitat staff or Amencorps members) to authorized travel e-mails
   maintained by the program manager. We questioned the $545.

4. Habitat claimed Federal costs of $317 and match costs of $1,391 for unemployment
   insurance premiums for its members serving at six affiliates in PY 2002-2003.
   Habitat considered unemployment insurance allowable for its affiliate sites.
   However, the state laws for these six affiliates did not require unemployment
   insurance premiums for members. Therefore, the member unemployment insurance
   premiums claimed for the members serving at the following affiliates are
   unallowable:
    ..    Calhoun County, Alabama


   ..
          Boston, Massachusetts
          Greater Bucks, Pennsylvania

   ..     Metro Camden, New Jersey
          Portland, Oregon
          Denver, Colorado

   Unemployment insurance premium costs are unallowable in accordance with
   AmeriCorps Provisions (2002 ed.), Section B.11 .d.iv., Unemployment Insurance,
   which states:

          The US.Department of Labor ruled on April 20,1995 that Federal
          unemployment compensation law does not require coverage for
          members because no employer-employee relationship exists. The
          Grantee cannot charge the costs of unemployment insurance taxes to
          the Grant unless mandated by state law. Programs are responsible for
          determining the requirements of state law by consulting their State
          Commission, legal counsel or the applicable state agency.

   Habitat claimed member unemployment insurance for members at these affiliates
   until March 2005, when it discovered that it was not required to withhold
   unemployment insurance taxes for members serving in Alabama. We questioned the
   $3 17.

5. Habitat paid a member a living allowance of $124 Federal and $41 match for 32
   service hours reported in the Web Based Reporting System (WBRS), but did not
   provide timesheets to support these hours. The affiliate with which the member
   served was unable to find the member's timesheet. AmeriCorps Provisions (2002
   ed.), Section C.21.c.ii., Financial Management Provisions, Time and Attendance
   Records, requires that grantees maintain time-and-attcndance records on all
   AmeriCorps members to document their eligibility for in-service and post-service
   benefits. We questioned the $124.
                                                                         SCHEDULE B


                  HABITAT
                        FOR HUMANITY    INTERNATIONAL
                       OF CLAIMED
                SCHEDULE            AND QUESTIONEDCOSTS
                       AWARD  No. 03NDHGA001
                   Aucusr 25,2003, TO MARCH31,2005


                                                      Amount         Notes
          Approved ~ u d ~(Federal
                            et     Funds)            $6,721,958
          Claimed Federal Costs                      $4,461,454

          Questioned Federal Costs:
            Lump-sum living allowance
            Member unemployment insurancc
            Unsupported Costs
            Unallocablc Costs
          Total Questioned Federal Costs                $15.434


1. Habitat claimed Federal costs of $14,330 and match costs of $4,777 in lump-sum
   living allowance payments to members. For the reasons stated in Schedule A, Note 1,
   we questioned Federal costs of $14,330 in lump-sum living allowance payments to 46
   members in PY 2003-2004 who completed their service terms in less than the 46%-
   week period stipulated in the member contracts. We also identified 67 members in
   PY 2004-2005 who completed their service terms in less that the 46%-week period
   stipulated in member contracts; however, we did not question these costs because the
   members had not completed their service as of March 3 1,2005.

2. Habitat claimed Federal costs of $657 and match costs of $6,307 in unemployment
   insurance taxes for its members serving at the following affiliate sites:

          Metro Camden, New Jersey
          Dcnver, Colorado
          Knoxville, Tennessee
          Greater Birmingham, Alabama
          Greater Columbus, Ohio
          Santa Fe, New Mexico
          Wiregrass, Alabama

   For the reasons stated in Schedule A, Note 4, we questioned these Federal costs of
   $657.
3. Habitat claimed unsupported PY 2003-2004 expenditures, as follows:

           Habitat claimed Federal costs of $303 and match costs of $1 12 for lodging for
           the site coordinator of the New York City Habitat for Humanity to attend the
           Corporation's International Human Relations and Diversity Training and
           Technical Assistance Project conference. Habitat could only provide as
           support a document showing a nightly rate. It was unable to provide
           documentation such as a hotel receipt or invoice to support actual costs. We
           questioned the Federal costs of $303.

           Habitat claimed Federal costs of $50 for food and for orientation held at the
           Mount Diablo, California, affiliate. The food cost was supported by a non-
           itemized credit card receipt that only listed the total amount and did not
           specify items purchased. We questioned the $50.

   According to AmeriCorps Provisions (2002 ed.), Section C.21.b., Source
   Documentation, the grantee must maintain adequate supporting documents for its
   expenditures (Federal and non-Federal) and in-kind contributions made under grants.
   Costs must be shown in books or records (hsbursement ledger or journal) and must
   be supported by source documents, such as receipts, travel vouchers, invoices, in-kind
   voucher, or similar document.

   Reimbursement policies for match expenditures, included in a site-supervisor manual
   provided by Habitat to affiliates hosting Amencorps members, stated that credit card
   receipts were acceptable documentation and did not require supporting
   documentation. Habitat was unaware that documentation supporting lodging costs
   and non-itemized credit card receipt and statemcnts was insufficient to support the
   allowability of expenditures. Habitat claimed $465, including Federal costs of $353
   and match costs of $1 12. We questioned the $353.

4. Habitat claimed Federal costs of $94 and match costs of $39 for shipping charges to
   non-National Direct affiliates. These costs are unallowable in accordance with OMB
   Circular A-122, Attachment A, Paragraph A (4), Allocahk costs. Habitat could not
   explain why it claimed shipping fees to the National Direct grant. We questioned the
   $94.
 Cotton6
Company



  Office of Inspector General
  Corporation for National and Community Service


                              INDEPENDENT
                                       AUDITORS' REPORT
                                                      ON
                                      AND INTERNAL CONTROL
                              COMPLIANCE


  We have audited costs incurred by Habitat for Humanity International (Habitat) for the
  following awards and have issued our report thereon dated September 29,2005. We
  conducted our audit in accordance with auditing standards generally accepted in the United
  States of America and generally accepted government auditing standards.

 Program                                Award No.            Award Period             Audit Period
 AmeriCorps National Direct           00ANDGA015           08/14/00-12131\03       08/14/02-03/31/05*
 Amencorps National Direct            03NDHGA001           08125103-08/24/06       08/25/03-03/31/05

                   *   Habitat adjusted its final Financial Status Report in March 2005

                 OVER PINANCIAL
  INTERNAL CONTROL            REPORTING

  In planning and performing our audit, we considered Habitat's internal control over financial
  reporting to determine our audit procedures for the purpose of expressing our opinion on the
  financial schedules and not to ~rovidean o~inionon the internal control over financial
  reporting. We noted certain matters involving the internal control over financial reporting
  and its operation, however, that we consider to be reportable conditions. Reportable
  conditions involve matters coming to our attention relating to significant deficiencies in the
  design or operation of the internal control over financial reporting that, in our judgment,
  could adversely affect Habitat's ability to initiate, record, process, and report financial data
  consistent with the assertions of management in the financial schedules. Reportable
  conditions are described the accompanying schedule of findings and questioned costs
  (Finding Nos. 1 through 7).

  A material weakness is a reportable condition in which the design or operation of one or
  more of the internal control components does not reduce, to a relatively low level, the risk
  that misstatements caused by error or fraud in amounts that would be material in relation to
the financial schedules being audited may occur and not be detected within a timely period
by employees in the normal course of pcrforming their assigned functions. Our consideration
of internal control over financial reporting would not necessarily disclose all matters in
internal control that might be reportable conditions and, accordingly, would not necessarily
disclose all reportable conditions that are also considered to be material weaknesses. Of the
reportable conditions described above, we consider Finding Nos. 1,2,3, and 5 to be material
weaknesses.

COMPLIANCE
        WITH LAWSAND REGUI.ATIONS

As part of obtaining reasonable assurance about whether financial schedules are free of
material misstatement, we performed tests of its compliance with certain provisions of laws,
regulations, and grants, noncompliance with which could have a direct and material effect on
the determination of financial schedule amounts. Providing an opinion on compliance with
those provisions was not, however, an objective of our audit, and, accordingly, we do not
express such an opinion. The results of our tests disclosed instances of noncompliance that
are required to be reported under generally accepted government auditing standards and that
are described in the accompanying schedule of findings and questioned costs (Finding Nos. 1
through 7).



   1. Habitat claimed unallowable and unsupported costs.

   The notes to Schedules A and B describe auestioned costs of $1.818 ,    that are unallowable
   in accordance with OMB Circular A-122, Attachment A, Paragraph A, Basic
   Considerations. These consist of costs claimed bv Habitat for which there is
                                                                             -
   documentation that claimed costs were expended in violation of laws., regulations. or
   specific conditions of awards, or costs that require interpretation of allowability b; the
   Corporation. Questioned costs also consist of unsupported
                                                          -      costs claimed by Habitat that
   rcquire additional documentation to support allowability.

   In addition, Habitat claimed additional unallowable and unsupported costs as part of its
   matching requircmcnts. These costs were not questioned in the schedules, because
   Habitat exceeded its overall match requirements.

   Recommendation: We recommend that the Corporation require Habitat to revise its
   policies and procedures regarding acceptable documentation to support claimed costs.

   Habitat Comments: Habitat stated that it has alreadv written a clarification of the
   difference between Federal rules regarding documentation of employee expenses and its
   own in-house rulcs and will bc sending this to its ArneriCorps affiliates within a week.

   Auditors' Additional Comments: Habitat's corrective actions, as described in its
   comments, arc responsive to our recommendation.
2. Habitat claimed excess living allowances.

Habitat paid the remainder of living allowances identified in member contracts in lump
sums to members who completed service terms early. AmeriCorps Provisions require
that living allowances only be paid to members while they are actually serving.

AmeriCorps Provisions (2002 ed.), Section B.1 l.b., Living Allowance Distribution, states
that living allowances are designed to help members meet necessary living expenses
incurred while participating in the AmeriCorps Program. Habitat paid the full amount of
living allowances to members who finished their service terms early, because member
contracts used by Habitat did not state that living allowances were only to be paid while
members were performing service and cease upon service completion. Habitat
intemreted the AmeriComs Provisions to mean the members should receive the full
amount of living allowances identified in member contracts. The lump-sum living
allowance payments resulted in $28,463 of questioned Federal costs.

Recommendation: We recommend that the Corporation require Habitat to revise it
policies and procedures to calculate and pay member living allowances in accordance
with program provisions.

Habitat Comments: Habitat stated that it was its understanding that paying a lump sum
at the end of a term completed early was the correct process. The Corporation clarified
the policy for all its participants on September 6,2005, and subsequently sent out a letter,
dated October 18, 2005, to all AmeriCorps programs, which essentially grandfathered in
existing agreements signed prior to September 6,2005. Habitat believes this finding
should be deleted from the final report. Additionally, it is alrcady taking steps to ensure
that new agreements will be in compliance with the clarified provisions regarding
member living allowances.

Auditors' Additional Comments: The Corporation clarified its Living Allowance
Provisions subsequent to the audit period, which ended on March 3 1,2005. The OIG's
guidance to the auditors provided for questioning all costs for catch-up or lump-sum
payments based on the provisions applicable during the audit period. Accordingly, we
did not delete this finding from the report. However, Habitat's corrective actions, as
described in its comments, are responsive to our recommendation.

3. Habitat claimed unallowable unemployment insurance

Habitat claimed and paid unemployment insurance for members at 11 affiliates even
though State law did not require such unemployment insurance. The Charlotte, North
Carolina, and Milwaukee, Wisconsin, affiliates were eligible to claim unemployment
insurance taxes for members, since State law required it. Unemployment insurance taxes
claimed for members serving at the following affiliates were unallowable, because State
laws did not require such insurance:
           Calhoun County, Alabama
           Boston, Massachusetts
           Greater Bucks, Pennsylvania
           Metro Camdcn, New Jersey
           Portland, Oregon
           Denver, Colorado
           Knoxville, Tennessee
           Greater Birmingham, Alabama
           Greater Columbus, Ohio
           Santa Fe, New Mexico
           Wiregrass, Alabama

Unemployment insurance premium costs are unallowable in accordance with
AmenCorps Provisions (2002 ed.), Section B.11 .d.iv., Unemployment Insurance, which
states:

       The U.S. Department of Labor ruled on April 20, 1995 that Federal
       unemployment compensation law does not require coveragefor members
       because no employer-employee relationship exists. The Grantee cannot
       charge the costs of unemployment insurance taxes to the Grant unless
       mandated by state law. Programs are responsiblefor determining the
       requirements of state law by consulting their State Commission, legal
       counsel or the applicable state agency.

Habitat claimed member unemployment insurance for members at these affiliatcs until
March 2005, when it discovered that it was not required to withhold unemployment
insurance taxes for members serving in Alabama. We questioned $974.

Recommendation: We recommend that the Corporation require Habitat to review its
policies and procedures to ensure that it claims member unemployment insurance only
when required by applicable State law.

Habitat Comments: Habitat stated that it began taking steps to eliminate this problem in
2005. Payroll staff researched state laws to determine which states do and do not require
the withholding of unemployment insurance from employee pay and are remitting only in
states where it is a statutory requirement. As new states are added to the progam, both
payroll and grant accounting staff now ensure the tax is paid only if required by state law
and charged appropriately.

Auditor's Additional Comments: Habitat's corrective actions, as described in its
comments, are responsive to our recommendation.

4. Habitat claimed unallowable staff labor.

Habitat claimed labor costs as match costs for affiliate staff members who either spent all
or a portion of their time working on AmenCorps activities. The San Antonio Habitat
affiliate did not maintain documentation in accordance with OMB Circular A-122 for
employees working on multiple activities. Specifically, timesheets used to document
hours spent on AmeriCorps activities did not account for total activities for which
employees were compensated. OMB Circular A-122, Attachment B, Paragraph 8 (m),
Support of salaries and wages, requires:

       ( I ) Charges to awards for salaries and wages, whether treated as direct
       costs or indirect costs, will be based on documentedpayrolls approved by
       a responsible official(s) of the organization. The distribution of salaries
       and wages to awards must be supported by personnel activity reports, as
       prescribed in subparagraph (2), except when a substitute system has been
       approved in writing by the cognizant agency. (See subparagraph E.2 of
       Attachment A,)

        (2) Reports reflecting the distribution of activity of each employee must be
        maintained for all staff members (professionals and nonprofessionals)
        whose compensation is charged, in whole or in part, directly to
        awards. . . .

        Reports maintained by non-profit organizations to satisfy these
        requirements must meet thefollowing standards: ... (b) Each report must
        account for the total activity for which employees are compensated and
        which is required in filfillment of their obligations to the organization.

These affiliate staff members were salaried employees, and the affiliates did not require
employees to maintain timesheets that documented and segregated all of their activities.
These staff members maintained documentation only of time spent on the AmeriCorps
National Direct grant.

Recommendation: We recommend that the Corporation require Habitat to keep personal
activity records that support labor costs in accordance with applicable OMB circulars and
other grant regulations.

Habitat Comments: Habitat stated that it would revise the staff match timeshcet, in
accordance with OMB guidelines, to reflect the total time worked by each person. In
addition, it will add a certification to ensure that Habitat personnel are not working on
other Federal grant-funded activities as part of their AmeriCorps work.

Auditors'Additional Comments: Habitat's corrective actions, as described in its
comments, are responsive to our recommendation

5. Habitat did not obtain criminal background checks for members before placing
   them in substantial, direct contact with children.

Habitat did not obtain background checks for members filling "Family Support Services"
positions involving contact with children. We reviewed position descriptions for
138 samplcd members. Potential contact with families and/or children was indicatcd in
7 of the 138 position descriptions. AmeriCorps Provisions (2002 cd.), Section B.6.h.,
Criminal Record Checb, requires programs with members who have substantial dircct
contact with childrcn to conduct criminal record chccks on thesc members.

Habitat lei? the decision to conduct background checks on members to its affiliates.
Further, it did not consider these chccks to be required, because persons under the age of
16 were not ~ermittcdon construction sites. Affiliate directors stated that criminal
background checks were not conducted for the seven members and provided a variety of
reasons for this, most indicating- that mcmbers in direct contact with children were never
left unsupervised.

While Habitat may not have intended for the unscreened members in "Family Support
Services" positions to have substantial dircct contact with children, Habitat must comply
with the requirements of the grant provisions.

Recommendation: We recommend that the Corporation ensure that Habitat:

    .      Obtain background checks for members filling family support-related
           positions and maintain docurncntation for each of these members; and

    .      Revise policies and procedures to require that background checks are obtained
           and reviewcd before permitting members to have contact with children.

Habitat Comments: Habitat stated that it researched Corporation rules and regulations
and could not find a description of, or definition of, what constitutes "substantial dircct
contact" with childrcn. Habitat also stated it would be helpful if the Corporation could
provide further clarification and guidance on whcn background checks are necessary.
Pending this guidance, it will begin performing criminal background checks on all
AmeriCorps members that may have any contact with children.

In addition, Habitat did not agree that any of the members identified in our audit had
substantial direct contact with children and, therefore, did not agree with the finding that
it failed to conduct criminal background checks on its AmeriCorps members.
Accordingly, Habitat requested that we delete this finding from the final report.

Auditor.~'AdditionalComments: Habitat's corrective actions, as described in its
comments, are noted. However, the results of its after-the-fact analysis of contact with
children do not mitigate the potential for harm in having unsuperviscd direct contact with
children. Accordingly, we did not remove this finding from the report.

6. Habitat did not have adequate procedures to ensure compliance with all grant
    provisions.

Habitat did not ensure that all members participated in orientation or training, and its
monitoring of affiliates did not comply with grant requirements.
Orientation and Training. Habitat did not have policies and procedures to document
orientation and training activities of members who did not attend the national orientation.
As a result, we were unable to determine if all sampled members attended orientation and
training activities. We reviewed sample timesheets and identified instances in which
members did not record orientation or training time during their first week of service.
Additionally, we reviewed training percentagcs calculated by WBRS; somc members did
not have time recorded for training. Habitat was also unable to provide documentation,
such as sign-in sheets, to support member attendance at training.

AmeriCorps Provisions (2002 ed.), Section B.7.c., Training, states:

     Consistent with the approved budget, grantees must provide members with the
     training, skills, knowledge, and supervision necessary toperform tasks required in
     their assignedproject positions, including specific training in a particular field and
     background information on the community served. The Grantee must conduct an
     orientation for members and comply with any pre-service orientation or training
     required by the Corporation. This orientation should be designed to enhance
     memher security and sensitivity to the community. Orientation should cover
     member rights and responsibilities, including the AmeriCorps program code of
     conduct, prohibited activities, requirements under the Drug-Free Workplace Act
     (41 U.S.C. 701 et seq.), suspension and termination from service, grievance
     procedures, sexual harassment, and other non-discrimination issues.

Recommendation: We recommend that the Corporation require Habitat to establish
policies and procedures to document member attendance at orientation and other training
activities.

Habitat Comments: Habitat stated that the member referred to in this item served only
three days with the program; and abandoned his position directly after orientation,
without reporting to the affiliate to servc. It now requires that, when a member abandons
his or her position, the person be sent a certified letter containing a Corporation Exit
Form, the Habitat End-of-Term Evaluation, and blank timeshects if the member was
missing timesheets.

Habitat also said that, in 2005 and prior to the start of this audit, it had rcvised possible
start dates so that members who do not enroll in the program during orientation may
enroll only on one other day, and all members are to be providcd mandatory phone
orientation prior to beginning service.

Auditors' Additional Comments: Habitat's corrective actions, as described in its
comments, arc generally responsive to our recommendation but do not address training
activities other than orientation.

Monitoring of Affiliates. Habitat has established policies and procedures to evaluate
and monitor its affiliates, including rcviewing program and financial reports, scheduling
annual site visits, and reviewing program progress reports. During site visits, Habitat
personnel used standard checklists to guide their inquiries and identify and communicate
program strengths and weaknesses. Site visit monitoring checklists and letters
summarizing site visits did not, however, provide sufficient details about the number and
names of the member files reviewed or topics and details of discussions with members
and supervisors.

According to 45 CFR Q: 2543.5 1(a), Monitoring and reporting program performance,
grantees are responsiblc for managing and monitoring each project, program, subaward,
function or activity supported by the award. By not adequately documenting its affiliate
site visits, Habitat and the Corporation cannot be certain that adequate monitoring efforts
were made.

Recommendation: We recommend that the Corporation require Habitat to document its
review of expenditure and member files to include aspects reviewed, content of
discussions with members, review results, and follow-up actions on issues identified.

Habitat Comments: Habitat stated it will now ensure a more thorough job of
documenting the numbers and names of the mcmber files reviewed, as well as topics and
details of discussions held with members and their supervisors.

Auditors' Additional Comments: Habitat's corrective actions, as described in its
comments, are responsive to our recommendation.

7. Habitat did not have adequate procedures to ensure documentation of member
   activities.

Habitat did not adequately document certain member activities in accordance with
AmeriCorps Provisions. We sampled 138 member files for the 3 program years. In some
cases, final evaluations were prepared before members completed their service terms and
therefore did not contain all required information. Some enrollment and exit forms were
missing member and/or supervisor signatures or were not in the files. Several enrollment
and exit forms were entered into WBRS late (over 30 days). Hours reported for some
members were not supported by member timesheets. Sample results are discussed below.

Evaluations. We identified the following:

           65 mid-tern and 63 final evaluations were not signed by the members to
           document that reviews were performed;

           19 member files did not contain a mid-term evaluation; and

           31 member files did not contain a final evaluation. Additionally,
                                                                          - . final
           evaluations were prepared prior to members completing their service terms,
           and did not contain all required information.
Evaluations are necessary to ensure that members are eligible for future terms of service.
According to 45 CFR §2522.220(d), Participant performance review, a participant is not
eligible for a second or additional term of service and/or for an AmeriCorps educational
award without mid-term and final evaluations. Additionally, AmeriCorps Provisions
(2002 ed.), B.7.g., Peiformance Reviews, requires that grantees conduct at least mid-term
and end-of-term evaluations of each member's performance, documenting that the
member has:

    .      Completed the required number of hours;

    .      Satisfactorilycompleted assignments; and

           Met other performance criteria that were clearly communicated at the
           beginning of the service term.

Enrollment and Exit Forms. We tested enrollment and exit forms for the 138 members
sampled. Habitat did not submit all required enrollment and exit forms for some
members in a timely manner. Also, some member forms lacked member or supervisory
signatures or were missing. Specifically:

           4 member enrollment forms wme not signed by the member and/or
           supervisor;

           84 member enrollment forms were not cntered into WBRS within 30 days;

           1 member exit form was not signed by the member;

           6 member exit forms were missing; and

           39 exit forms were not entered into WBRS within 30 days.

AmeriCorps Provisions (2002 ed.), B.16.b., AmeriCorps Member-Related Forms,
requires that member enrollment forms be submitted to the Corporation no later than
30 days after a member is enrolled, and that member exitlend-of-term-of-service forms be
submitted no later than 30 days after a member exits the program.

Habitat had procedures in place in PY 2004-2005 to ensure that forms were completed
and submitted in a timely manner. These procedures were not in place during the earlier
program years. Failure to promptly obtain and submit this information could result in
inaccurate Corporation member records.

Member Service Hours Reported in WBRS. Member service hours recorded in
WBRS differed from member timesheet hours for some members. AmeriCorps,
Provisions (2003 ed.), C.22.ii, Time and Attendance Records, requires that grantees keep
time-and-attendance records on all AmeriCorps members to document their eligibility for
in-service and post-service benefits. The Corporation uses time-and-attendance
        information in WBRS to track member status, and these data are the basis for appropriate
        education awards.

        Habitat program personnel made data-entry errors when recording membcr hours in
        WBRS. WBRS hours differed from member timesheet hours for two members.
        Timesheet hours exceeded WBRS hours for one member, and WBRS hours were
        unsupported by timesheet hours for the second member, because the affiliate was unable
        to locate the member's timesheets. We questioned $124 of Federal living allowance paid
        to the member.

        Timesheets. Member timesheets contained deficiencies: originals were not maintained,
        corrections were not initialed, pencil was used, and whiteout was used. Additionally, the
        national office receives and maintains copies of timesheets. Thus, if the national office
        makes timesheet changes, it changes a copy, and original timesheets located at affiliate
        sites are not revised accordingly.

       Recommendation: We recommend that the Corporation ensure that Habitat strengthen
       its program monitoring procedures to comply with grant requirements for conducting and
       retaining member evaluations, completing enrollment and exit forms in a timely manner,
       ensuring that all hours reported in the WBRS system are adequately supported by
       member time sheets, and that timesheets are maintained properly.

       Habitat Comments: Habitat stated that it began requiring, in early 2005, that members'
       evaluations are to be sent to Habitat, rather than kept at the affiliate sites. This practice
       allows Habitat staff to ensure that evaluations are completed and signed by both
       supervisor and members.

       Auditors' Additional Comments: Habitat's corrective actions, as described in its
       comments, are generally responsive to our recommendation, but do not address:

           a       Completing enrollment and exit forms in a timely manner; and

                   Ensuring that all hours reported in the WBRS system are adequately
                   supported by member timesheets and that timesheets are maintained properly.

    This report is intended for the information and use of the Corporation, the OIG, Habitat, and
    the U.S. Congress and is not intended to be and should not be used by anyone other than
    these specified parties.

    COTTON& COMPANY
                  LLP



'   Michael W. ~ i l l e s ~ j & ~ ~
    Partner
                 v"
         $&Habitat                 for Humanity"

                     Building
                      houses,
                     building
                         hope



            January 5,2006

            Corp. for National & Community Service
            Ofice of Inspector General
            Mr. James Elmore, Audit Manager
            1201 New York Ave. NW, Suite 830
            Washinaton. DC 20525
            Fax: ($2) 606-9397
            e-mail: i.elmore~,cncsoia.aov

           Dear Mr. Elmore:

           We have reviewed, researched, and discussed the findings and questioned costs detailed in your
           draft report on the Audit of Corporationfor National and Community Service Grants Awarded to
           Habitat for Humaniv International (HFHI), dated December 8, 2005. Anached you will find
           our response to the issues raised in this audit.

           We would like some portions of the audit fmdings and questioned costs to be revised, to correct
           errors and clarify facts for the final report to CNCS. We realize that some of what we note in the
           following pages will likely be included in the appendix in the final document. For this reason,
           we will take care in this response to point out those items that truly need revision in the final
           document, for correctness andlor clarity in your final report.

           Ow responses begin on the next page, numbered as they were starting on page 16 in your draft
           report.

           Sincerelv.



                 of Administration and CFO

                 I21 Habitat St.
Amrriwr. GA 31709.3198 USA
                (2291924-6935
      toll Ires 1800) 422-4828
            lax (229)924-6541
                www,habital.org
    Responses to Findings and Questioned Costs in the Office of Inspector General's
   Draft Report on the Audit of Corporatrbnfor National and Community Service G M ~ &
                     Awarded to Habitat for Humanity International


Before addressing the findings in the Independent Audirors Report on Compliance and Control,
which begins on page 15 of your document, we would like OIG to clarify a comment in the text
of its introductory information on page 3, under the header Habitat for Humanity Interna-
tional. The second sentence of the third paragraph reads: "Habitat has 40 operating sites na-
tionwide, each with a non-Habitat director, and approximately 250 AmeriCorps members in PY
2004-2005." The statement that we believe needs clarification regards the directors at ow opetat-
ing sites. These directors are all members Habitat for Humanity affiliate staff.

Finding #I:           Habitat claimed unallowable and unsupported costs.

Questioned Costs:

Context:              The above questioned amount was determined by OIG to consist of costs
                     which our documentation indicated were expended "in violation of laws,
                     regulations, or specific conditions of awards, or costs that require interpre-
                     tation of allowability by the Corporation." They also consist of "unsup-
                     ported costs claimed by Habitat that require additional documentation to
                     support allowability."

Recommendation:      It was recommended by OIG that the Corporation require Habitat to revise
                     its policies and procedures regarding acceptable documentation to support
                     claimed costs.

-
Action Taken:        Habitat has already written a clarification of the difference between the
                     Federal rules regarding documentation of employee expenses and its own
                     in-house rules regarding the same, for non-Federal programs. We will be
                     sending this to our AmenCorps affiliates within a week, to ensure that the
                     program managers for our AmeriCorps programs all train their employees
                     and AmeriCorps members to always ask for itemized receipts when they
                     are expending funds on behalf of any of our AmenCorps programs.


Finding #2: Habitat claimed excess living allowances.

Questioned Costs:    $28,463

Context:              The above questioned amount was determined to be comprised of member
                     living allowances paid to members who had completed their terms of ser-
                     vice early, the payments being made lump sum, based on the full amounts
                     shown in the members' contracts. OIG stated that "AmeriCorps Provi-
                     sions (2002 ed.), Section B.ll.b., Living Allowance Distribution, states
                     that living allowances are designed to help members meet necessary living
                     expenses incurred while participating in the AmeriCorps program." OIG
                    further stated that our member contracts "did not state that living allow-
                    ances were only to be paid while member$ were performing service and
                    cease upon service completion."

Recommendation:     OIG recommended that the Corporation require us to revise our policies
                    and procedures to calculate and pay member living allowances in accor-
                    dance with the (AmeriCorps) program provisions.

Action Taken:        It has been our understanding that paying a lump sum at the end of a term
                    completed early was the correct process. We have had this understanding
                     for the past ten years from both CNCS and other participating organiza-
                    tions. CNCS clarified the policy for all its participants on September 6,
                    2005. CNCS subsequently sent out a letter dated October 18, 2005 to all
                    AmeriCorps programs nationwide, which essentially grandfathered in ex-
                    isting agreements signed prior to September 6, 2005. That letter states that
                    "Programs that signed contracts or enrolled members prior to September 6 ,
                    2005 based on agreements that do not conform to the new provisions may
                    follow their existing written policies and contract agreements until new
                    contracts are executed." With this in mind, we would like to point out that
                    both agreements audited by OIG for CNCS were signed prior to Septem-
                    ber 6,2005, or had enrolled members prior to that date:
                         AmeriCorps National Direct, Award # 03NDHGA001 for the period
                         08/25/03-08/24/06 was signed on 07/01/2005.
                         AmeriCorps National Direct, Award # 00ANDGA015 for the period
                         08/14/02-03/31/05 was signed on 06/28/2004 (the most recent date on
                         that renewal of the existing agreement).
                    Given this, we believe this finding should be deleted from the final report
                    to CNCS by OIG. Additionally, we are already taking steps to ensure that
                    new agreements we sign in the future are set up to be in compliance with
                    the clarified provisions regarding member living allowance payments.
                    Therefore, we are not out of compliance with these rules, which were
                    widely misinterpreted; and will remain in compliance in the future with the
                    clarified provisions.


Finding #3: Habitat claimed unallowable unemployment insurance.

Ouestioned Costs:   $974

Context:            The above questioned amount was determined by OIG to consist of unem-
                    ployment insurance charges paid for members at 11 afiiliates in states
                    where the respective state laws did not require it. OIG also found we had
                    rightfully charged state unemployment taxes in 2 states that did require it.

Recommendation:     It was recommended by OIG that the Corporation require Habitat to re-
                    view its policies and procedures to ensure that it claims member unem-
                    ployment insurance only when required by applicable State law.
Action Taken:       Habitat began taking steps to eliminate this problem in 2005. Payroll staff
                    researched state laws to determine which states do and do not require the
                    withholding of SUI from employee pay. Currently, we are remitting only
                    in states where it is a statutory requirement. As new states are added to the
                    program, both payroll and grant accounting staff ensure that SUI tax is
                    paid only if required, in which case it is charged appropriately.


Finding #4: Habitat claimed unallowable staff labor.

Questioned Costs:   No amount indicated.

Context:             The OIG determined that Habitat claimed labor costs as match costs for
                            staff members who either spent all or a portion of their time work-
                    ing on AmeriCorps activities. The San Antonio Habitat affiliate was found
                    to not maintain documentation in accordance with OMB Circular A-122
                    for employees working on multiple activities. OIG stated that these staff
                    members "maintained documentation only of time spent on the Ameri-
                    Corps National Direct grant", and not all of their activities.

Recommendation:     It was recommended by OIG that the Corporation require Habitat to keep
                    personal activity records that support labor costs in accordance with appli-
                    cable OMB circulars and other grant regulations.

Action Taken:       As recommended, Habitat will revise the staff match timesheet, in accor-
                    dance with OMB guidelines, to reflect the total time worked by each per-
                    son. In addition, we will add a certification to ensure that the person is not
                    working on other federally grant-funded activities as part of their Ameri-
                    Corps work. We request that CNCS provide Habitat with sample ap-
                    proved timesheets that can be used to document affiliate staff time towards
                    the program.


Finding #5: Habitat did not obtain criminal background checks for members before plac-
ing them in substantial direct contact with children.

Ouestioned Costs:   $79,278

Context:            Out of a sampling of 138 position descriptions for members in "Family
                    Support Services", OIG found 7 members who had "potential contact with
                    families andlor children". OIG further stated that AmeriCorps Provisions
                    (2002 ed.), Section B.6h, Criminal Record Checks, requires programs with
                    members who have "substantial direct contact" with children to conduct
                    criminal record checks on these members. OIG added that Habitat left the
                    decision to conduct background checks on members to its affiliates and
                    said Habitat didn't consider background checks necessary because children
                    under age 16 are not allowed on construction sites. OIG questioned the
                    Federal portion of the living allowance and education awards earned by
                    these 7 members, without indicating the amount by individual. However,
                    there is an overall amount of           costs indicated for this finding of
                    $79,278.

Recommendation:     It was recommended by OIG that the Corporation ensure that Habitat:
                        obtain background checks for members filling family support-related
                        positions, and maintain documentation for each of them, and
                        revise our policies and procedures to require background checks be ob-
                        tained and reviewed before permitting members to have contact with
                        children.

Action Taken:       Habitat researched CNCS rules and regulations and could not find a de-
                    scription of, or definition of, what constitutes "substantial direct contact"
                    with children. It is clear from the documentation provided by OIG that
                    each state's laws vaIy on what constitutes substantial contact with chil-
                    dren. It would be helpful if CNCS could provide further clarification and
                    guidance on when background checks are necessary. Pending this further
                    guidance, we will begin performing criminal background checks on all
                    AmeriCorps members that have any contact with children.

                    The "Family Support Services" at these affiliates are oriented toward help-
                    ing families, parents with children, obtain decent shelter. Given this,
                    when we conducted our internal probe of our affiliates' managers, we
                    found that only one member had unsupervised contact with children when
                    she volunteered to drive a van of children to a Halloween party. We do
                    not believe this contact to have been "substantial" as defined here. We
                    found that the rest of the time, when our Habitat affiliate staff and their
                    AmeriCorps members met with families in "Family Support Services", the
                    parents or other stafflteachers were there with the children, and they (not
                    the AmeriCorps members) supervised the children directly. Additionally,
                    all of these other situations did not appear to meet the "substantial" contact
                    requirement. Therefore, we do not agree with the fmding that we failed to
                    conduct criminal background checks on our AmeriCorps members; and
                    would like this finding to be deleted from the final report OIG makes to
                    CNCS.


Finding #6: Habitat did not have adequate procedures to ensure compliance with all grant
provisions.

Ouestioned Costs:   $124

Context:            OIG found that Habitat did not ensure that all members participated in ori-
                    entation or training because we did not have policies and procedures to
                    document orientation and training of members who did not attend the na-
                    tional orientation. Also, OIG added that our monitoring of affiliates did
                    not comply with grant requirements, as our site visit monitoring checklists
                    and letters summarizing site visits did not provide sufficient details about
                    the number and names of the member files reviewed, or topics and details
                    of discussions with members and supervisors.

Recommendation:     OIG recommended that the Corporation require Habitat:
                       to establish policies and procedures to document member attendance at
                       orientation &d other training meetings, and
                       to document its review of expenditures and member files to include as-
                       pects reviewed, content of discussions with members, review results,
                       and follow-up actions taken on identified issues.

Action Taken:       Regarding the finding that we did not ensure that all members participated
                    in orientation or training due to a lack of policies and procedures to docu-
                    ment member training, our National Direct Program Director indicates that
                    the member referred to in this item served only three days with the pro-
                    gram; and abandoned his position directly after National Orientation,
                    without reporting to the affiliate to serve. As AmeriCorps members com-
                    plete timesheets every two weeks, this member did not complete a time-
                    sheet prior to abandoning the position. The Payroll Department deter-
                    mined that the member must be paid for the three days he served. This
                    was documented in the member's files. Habitat instituted a policy in 2004
                    to address this issue. When a member abandons his or her position now,
                    Habitat sends that person a certified letter containing a CNCS Exit Form,
                    the Habitat End of Term Evaluation, and blank timesheets if the member
                    was missing timesheets.

                    Additionally, prior to the audit by OIG in 2005, we revised possible mem-
                    ber start dates so that members who do not enroll in the program during
                    National Orientation may enroll only one other day, and all members were
                    provided mandatory phone orientation prior to beginning service. Habitat
                    took roll on those conference calls, and will ensure that the time is being
                    recorded properly as training time on the members' timesheets.

                    Regarding our monitoring of our affiliates, and our site visit documenta-
                    tion, we will share the information cited by OIG with our AmeriCorps
                    program managers to ensure a more thorough job of documenting the
                    number and names of the member files reviewed, as well as topics and de-
                    tails of discussions held with members and their supervisors.


Finding #7: Habitat did not have adequate procedures to ensure documentation of mem-
ber activities.

Ouestioned Costs:   Same questioned costs as finding #6.

Context:            Out of a sampling of 138 members files for the 3 program years, the fol-
                    lowing was found regarding enrollments, evaluations, and exit documents:
                       65 mid-term and 63 final evaluations were not signed by members to
                       document that reviews were performed
                      19 member files didn't contain mid-term evaluations
                      3 1 member files didn't contain final evaluations
                      4 enrollment forms were not signed by member andlor supervisor
                      84 enrollment forms were not keyed into WBRS within 30 days
                      6 missing exit forms, and 1 existing exit form were not signed by the
                      member, and lastly,
                      39 exit forms weren't keyed into WBRS within 30 days.
                  Additionally, OIG found that for some members, Member Service hours
                  reported in WBRS differed from their timesheets, noting that in three in-
                  stances, this was due to keying errors made in WBRS; with one member's
                  timesheet not able to be located, which is where the $124 in questioned
                  living costs came fiom.

Recommendation:   It was recommended by OIG that the Corporation ensure that Habitat
                  strengthen its program monitoring procedures to be in compliance with
                  grant requirements for conducting and retaining member evaluations,
                  completing enrollment and exit forms in a timely manner, ensuring that all
                  hours reported in WBRS are adequately supported by member time sheets,
                  and that the timesheets be maintained properly.

Action Taken:     Habitat began requiring, in early 2005, that member evaluations get sent to
                  HFHI, rather than kept at the affiliate sites. This allows HFHI staff to en-
                  sure that evaluations are completed and signed by both supervisor and
                  members. Also, the National Direct Program Director wants OIG to know
                  that one data entry error cited made no difference in the completion of ser-
                  vice for the member in question. Regarding the timesheet that could not
                  be located, it was for the member who abandoned his position directly fol-
                  lowing National Orientation, mentioned previously as part of our response
                  to Finding # 6.
                                                        &
                                     COMMUNITY
                                     SERVICE=



To:            Carol Bates, Acting Inspector General

~ m m : d - Margaret Rosenberry, Director of

Ce:     1)     Rosie Mauk, Director of AmeriCorps
               Tory Willson, Audit Resolution Coordinator

Date:         January 9,2006

Sub:          Response to OIG Draft Audit Report,Audit of Corporation for National and
              Community Service Grants Awarded to Habitat for Humanity International


The Corporation has reviewed the subject draft audit report of the grauts awarded to Habitat for
Humanity International (Habitat), durbg the period 08/14/02 - 03/31/05, and the mponse from
Habitat
Habitat concurredwith five of the seven compliance and internal control recommendations and
states that they have implemented corrective action on those five recommendations. The
Corporation notes that of the two findings and internal control recommendationsthat Habitat
reauested reconsideration, the Cornration issued clarifying policy in 2005 and Habitat states
they have made changes their c-t        policy and p&&%        bask on the new guidance from
the Corporation.

We w ill verify that Habitat has implemented all findings and recommendationsduring the audit
resolution process after the final report is issued.




                                                      *
                            1201 New York Avenue, N W Washington, DC 20525
                                               *
                                  202-606-5000 www.nationalse~ce.org
                           Senior Corps * AmeriCorps * Learn and Serve America
